                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM
                                                                                                            I




 Case Number: A-04030013



          We received allegations that two NSF proposals submitted by the subject1contained a summary
          figure plagiarized from a published paper. When asked, the subject explained that this was an
          unintentional error. He admitted he copied the same summary figure in each of the NSF
          proposals. However, he said he believed the figure was in two other references he cited in the
          proposal, a belief he discovered as a result of this inquiry was not true. He apologized for his
          "unintended negligence."

          We determined that, although the subject departed from the accepted practice of the scientific
          community when he copied the figure, his act was not a significant departure. We wrote to the"
          subject strongly advising that he be more careful in the preparation of proposals in the future.

          Accordingly, this case is closed and no further action will be taken.




                                                                                                        /I'i




NSF 01G Form 2 (1 1/02)                                                                                 1
